                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




     We received an allegation that an NSF program officer (subject') intentionally declined six NSF
     proposals2 submitted by the complainant3over an 8-year period. The complainant claimed that the
     subject deliberately selected scientists from the subject's former University to be ad hoc reviewers
     and panelists for the complainant's proposals so that he could get substantially more negative
     evaluations, which would decrease the probability of funding. Further, the complainant alleged that
     the subject promised him, on several occasions, that one or more of his proposals would be funded.
     Finally, the complainant alleged that the ad hoc reviewers and panelists for his proposals used some
     of his ideas in their own proposals and publications.

     Our review showed that there was no evidence that the subject demonstrated any bias in the
     selection of panelists and ad hoc reviewers or in the declination of the complainant's proposals.
     We found that several panels included no scientists with any past or present affiliation -student,
     faculty member, or post-doctoral researcher - with the subject's former University. Further, no
     panel in our review included an unusual number of scientists with past or present affiliations with
     the subject's former University. Finally, a@ hoc reviews submitted by scientists with present or
     former affiliations with the subject's former University rated the complainant's proposals more
     favorably than the average overall ratings for each proposal.

     Our review found no evidence to support the allegation that the subject had promised funding.
     Rather, we found evidence that the subject attempted to be supportive of the complainant and
     assist him with his proposal submissions.

     Finally, our review showed no evidence that any of the panelists or ad hoc reviewers for the
     complainant's NSF proposals used any ideas that were unique to the complainant.

     This case is closed and no further action will be taken.




I    2~~~ proposals include:                                                                              There are seven
      proposals listed rather than six. This is because the complainant was unclear as to the specific proposals he was
      concerned about, so to be thorough, all the proposals with the same toPc were included for this review.
                           is


I'
                                                                                                     NSF OIG Form 2 (1 1/02)
